<html>
<title> - AIRLINE AND AIRPORT HOLIDAY TRAVEL PREPARATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
            AIRLINE AND AIRPORT HOLIDAY TRAVEL PREPARATIONS

=======================================================================

                                (110-88)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
38-920                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Anderson, Richard, Chief Executive Officer, Delta Air Lines......     7
Barger, David, President and Chief Executive Officer, JetBlue 
  Airways Corporation............................................     7
Bart, Krys T., President and Chief Executive Officer, Reno-Tahoe 
  International Airport, Chair, American Association of Airport 
  Executives.....................................................     7
Faberman, Edward P., Executive Director, Air Carrier Association 
  of America.....................................................     7
Principato, Gregory, President, Airports Council International-
  North America..................................................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    38
Cohen, Hon. Steve, of Tennessee..................................    39
Costello, Hon. Jerry F., of Illinois.............................    40
Mitchell, Hon. Harry E., of Arizona..............................    45
Petri, Hon. Thomas E., of Wisconsin..............................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Anderson, Richard................................................    65
Barger, David....................................................    95
Bart, Krys T.....................................................   105
Faberman, Edward P...............................................   116
Principato, Greg.................................................   123

                       SUBMISSIONS FOR THE RECORD

Petri, Hon. Thomas E., a Representative in Congress from the 
  State of Wisconsin, a letter from the New York and New Jersey 
  delegations to Secretary of Transportation Mary Peters, at the 
  request of Rep. Kuhl...........................................    61

[GRAPHIC] [TIFF OMITTED] T8920.001

[GRAPHIC] [TIFF OMITTED] T8920.002

[GRAPHIC] [TIFF OMITTED] T8920.003

[GRAPHIC] [TIFF OMITTED] T8920.004

[GRAPHIC] [TIFF OMITTED] T8920.005

[GRAPHIC] [TIFF OMITTED] T8920.006



            AIRLINE AND AIRPORT HOLIDAY TRAVEL PREPARATIONS

                              ----------                              


                      Thursday, November 15, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] Presiding.
    Mr. Costello. The Subcommittee will come to order.
    As Chair of the Subcommittee, I will ask all Members, staff 
and everyone in the room to turn off electronic devices or to 
put them on vibrate.
    The Subcommittee is meeting today to hear testimony on 
airline and airport holiday preparations. I will give an 
opening statement and will then recognize our Ranking Member.
    Mr. Petri is over in the Education and Labor Committee. He 
was with us earlier. He will join us a little bit later on, but 
until he arrives, Mr. Coble from North Carolina will be the 
Ranking Member for this hearing.
    I want to welcome everyone this morning to our Subcommittee 
hearing on airline and airport holiday travel preparations. 
This hearing is the third in a series of hearings on airline 
consumer protection.
    The Air Transport Association forecasts that 27.3 million 
passengers will be boarding planes during the 12-day holiday 
travel period that starts on November 16 and ends on November 
27, a 4 percent increase from last year. An average of 2.3 
million passengers will travel each day with about a 90 percent 
aircraft load factor.
    This increase in traffic comes at a time when airlines and 
their consumers have been experiencing the worst on-time delays 
through August. More than one in every four flights were 
delayed. Long onboard-Tarmac delays have increased by almost 49 
percent from 2006, and delays of 5 hours or more have increased 
by 200 percent.
    The nonweather-related delays and the increasing number of 
consumer complaints that passengers filed this summer are 
unacceptable. We are holding this hearing today in an effort to 
inform the traveling public about what the airlines and the 
airports are planning to do to ensure that consumers do not 
experience lengthy delays during this busy holiday travel 
season.
    While the FAA and the DOT have had numerous closed-door 
meetings on ways to reduce congestion and delays, Secretary 
Peters declined to come to this hearing today to tell the 
traveling public what this administration is doing to ensure a 
safe and an efficient holiday travel season. It is very 
unfortunate that the administration would not allow the 
Secretary to be here today to talk to the traveling public, to 
tell the public what this administration and the FAA is doing 
in conjunction with the airlines and the airports to, in fact, 
address what may be a very busy holiday season.
    I am pleased, though, that two airline chief executive 
officers, both Richard Anderson from Delta Air Lines and David 
Barger from JetBlue Airways, are here to discuss how their 
respective carriers are preparing for the holiday travel season 
and what consumers can expect.
    I am also interested in hearing more about what our 
airports are doing to ensure the safety and comfort of 
passengers while they are in the terminals. One of the lessons 
learned from both the American Airlines and JetBlue incidents 
last winter was that airlines and airports need to work 
together to get passengers on and off the aircraft as quickly 
as possible to reduce lengthy Tarmac strandings.
    The traveling public saw firsthand this year the serious 
problem our current system has with congestion and delays, 
which affect passengers and the quality of service. In H.R. 
2881, the FAA Reauthorization Act that passed the House of 
Representatives, we addressed many of these issues to better 
protect consumers and to reduce congestion and delays. It was 
my hope that we would have the FAA Reauthorization Bill that 
passed the House of Representatives earlier this year enacted 
into law and signed by the President by now, but unfortunately, 
the other body, the U.S. Senate, has yet to act on its version 
of the FAA Reauthorization Bill.
    The airlines, airports and the Federal Government must work 
together to make certain that consumers get to their 
destinations safely and efficiently during this busy holiday 
season.
    With that, I would like to, again, welcome all of our 
witnesses.
    Before I recognize Mr. Coble for his comments, I would ask 
unanimous consent to allow 2 weeks for all Members to revise 
and to extend their remarks and to permit the submission of 
additional statements and materials by Members and witnesses.
    Without objection, so ordered.
    At this time, the Chair would recognize the gentleman from 
North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. If it pleases the 
Chair, Mr. Mica has another place to go. If he could go now, I 
could follow him, if that is okay with you.
    Mr. Costello. The Chair would be happy to recognize the 
Ranking Member of the Full Committee and the former Chairman of 
this Subcommittee, my friend, Mr. Mica from Florida.
    Mr. Mica. I would like to thank you for yielding to me. I 
appreciate your leadership and also for your convening this 
hearing.
    I also see Mr. DeFazio, who did a great job on the Aviation 
Subcommittee as the Ranking Member. We have been working 
together for many years, trying to improve passenger service 
and also security for the flying public.
    Today is sort of a bad news day for the flying public. They 
are going to get some grim predictions, probably, of the 
situation we face with the crowded and congested airways and 
airports. Across the hall, I am leaving in just a minute to 
participate in a Government Reform investigative hearing on the 
failure of TSA's screening of passengers. So it is not a very 
good news day.
    Secretary Peters is not here, and it is my understanding 
that the administration will announce shortly some measures to 
deal with holiday traffic and also to deal with consumers who 
are sort of left in the lurch by the congestion that they are 
facing. Several of these improvements are overdue.
    One is going to be, as I understand it, a requirement for 
some increased compensation for passengers who are 
inconvenienced or delayed at the responsibility of the airline, 
and I think that that is important. Airlines have to step up to 
the plate to deal with consumers who have been abused. It has 
been sort of a one-way street, unfortunately, to date, where 
the passenger is sort of left in the lurch and is not 
compensated, and then when something goes wrong, the passenger 
is inconvenienced or loses time and money. So I think that is a 
positive step.
    I think, also, some news will be forthcoming on 
improvements in air traffic control capability. We do have 
needs of placing additional air traffic controllers and also in 
dealing with the traffic. I am pleased the administration has 
also been meeting with the airlines--we will hear about that in 
a few minutes--on issues of congestion at some of the choke 
points, particularly the Northeast airports and JFK in 
particular. We had previous hearings on that. So I think that 
they are making some progress and are talking.
    Even with the next generation air traffic control, which at 
the very best estimates is some--I would say, if everything 
went right and if Congress appropriated all of the money, 
getting the next-generation air traffic control system in place 
is at least 15 years off. However, we have moved forward with 
the first of the ground stations. The contract has allowed for 
that. So there is some good news, but there is some very bad 
news for folks who think there is going to be a quick cure to 
the congestion.
    The other thing that I wanted to mention again is that 
there is no silver bullet to deal with this. The system is 
straining; it will continue to strain. We are going to have to 
have mechanisms for the private sector. Hopefully, Government 
will not try to be a regulator in what should be a market-
driven situation. But we can do a better job as the regulators 
in, again, protecting consumer interests and in trying to get 
our airways opened up just like we have opened up our highways 
and in making certain that we have the air traffic controller 
staffing that we need.
    Finally--this is more of the bad news. We are going to 
discuss this. I am going across the hall. Mr. Waxman and I 
usually do not agree on a lot, but I am so pleased that Mr. 
Waxman is looking into the failure of the Transportation 
Security Administration to find bombs, weapons and explosive 
materials that pose a great danger to us. Congestion may be 
bad, but to have planes blown out of the sky would be 
absolutely horrible. The failure of TSA to take measures to 
improve and also to relay to the public the situation we are in 
right now I think is unconscionable.
    I am hopeful that we can get in place additional measures. 
We have 19 layers of security. I think that what Mr. Waxman is 
doing in revealing some things, not just this story of the 
failure by TSA inspectors but by the GAO inspectors that--
incidentally, Mr. Costello, when we sort of passed this over, I 
don't know if you recall that meeting, and I don't know if you 
were there, but they sort of pooh-poohed the tests, and the 
tests had been validated by the GAO, that they could, in fact, 
take down aircraft. And we do believe that this is the next 
step the terrorists are looking at. So we have to get these 
improvements in place.
    The final of the 19 elements of protection in a layered 
security system is the flying public. And the public needs to 
be alert that the system faces potential danger, and they may 
be our last line of defense in this. In fact, our congested 
planes and full planes may be some of our best protection with 
a knowledgeable public to know that people may want to do us 
harm, and so they will be on the lookout for those dangers.
    So a lot of bad news. There is, hopefully, a little good 
news with the great public as our final line of defense.
    I yield back.
    Mr. Costello. I thank the gentleman. It is a very serious 
problem, and we are pleased that Mr. Waxman's Committee is 
looking into the matter.
    Back to the topic at hand, though, which is airline and 
airport holiday travel preparations. Let me recognize at this 
time the gentleman from Oregon, Mr. DeFazio, for any comments 
that he may have.
    Mr. DeFazio. Thank you, Mr. Chairman. I will divert from 
the agenda just for a moment to respond to the Ranking Member.
    We have been holding ongoing hearings in Homeland Security 
on this issue, and the gentleman is aware that we are running a 
system with 1970s technology. The screeners today--a lot of 
people are knocking the screeners. It is not the screeners. 
They are better-trained; they are professional. The tests are 
much more sophisticated that they are being asked to use, but 
they are working with 1970s technology. This administration and 
the previous Republican Congress refused to buy and, in fact, 
cut the budget for enhanced equipment and for more screeners. 
We are trying to rectify that.
    There is now millimeter wave technology. We need body-
scanning. We need three-dimensional. We need the same kinds of 
machines at the airports that you put your luggage through or 
your baggage through as you walked in here today into the 
office building and when you go downtown to any building. But 
we do not have those in the airports because the administration 
has refused to buy them. So it is a shame, both for security 
issues and for customer service issues, that the administration 
is not here today. That is a key part of answering this 
problem.
    Yes, we can have a market-based approach, and we can make a 
lot of improvements there. Consumers are not getting a lot of 
meaningful information. If you take a scheduled flight at a 
time that is very convenient for you, it just happens that a 
lot of other people feel it is convenient. And many airports 
are scheduling more flights or airlines that can take off 
during a given hour, and customers do not know that. So, yes, 
you have a theoretical flight at 9 o'clock in the morning, but 
90 percent of the time it is not leaving at 9 o'clock in the 
morning. But it is hard to find that information in a 
meaningful way.
    So forget about a market-driven system. We need to have a 
much more transparent process for customers to understand 
better what their rights are and, you know, what contingencies 
relate to their flights.
    I would congratulate the Chairman on a number of measures 
which he put into the FAA Reauthorization, which is, 
unfortunately, languishing in the Senate.
    The other side of the equation is the "R" word. Now, I know 
this administration hates that, but there has to be a light 
touch of regulation in solving these problems. They have begun 
to convene some meetings, very belatedly, to talk about 
overscheduling and other issues, but you cannot run this system 
just with a market-based approach, particularly when consumers 
are deprived of meaningful information.
    I hope, today, we are going to hear some real steps forward 
by the airlines. We have several times approached this issue. 
We almost put in passenger rights in 2000. Then Bud Shuster 
negotiated the voluntary measures with the airlines, which, 
unfortunately, failed us pretty miserably in the last year and 
a half or so. And so we need to hear where we go from here, in 
addition to, obviously, getting the Chairman's FAA bill passed 
through the Senate, so we can put some meaningful protections 
in place.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I will be brief.
    At a previous Aviation Subcommittee hearing, Mr. Chairman, 
I shared with the audience a conversation I had with a 
constituent some weeks ago. He said to me, "Heretofore, my 
least favorite place to be was in my dentist's chair." He said, 
"Now my least favorite place to be is at an airport."
    I hope the testimony we hear today, Mr. Chairman, will make 
dental visits less appealing and root canals less appealing and 
airport visits less frustrating and less demanding.
    The constituent said to me, he said, "When I go to an 
airport, I know the chances of a cancellation or a delay are 
excellent." And he was very frustrated, blaming me for it, just 
as he would probably blame you for it. So I hope that these 
problems will be assuaged as we hear from our witnesses today.
    And I thank the Chairman.
    Mr. Costello. I thank the gentleman.
    The Chair now recognizes the gentleman from Tennessee, Mr. 
Duncan, for any comments that he may have. Then, after Mr. 
Duncan's comments, we will recognize and go to the witnesses 
for their testimony.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, and 
thank you for calling this very important hearing and for 
trying to do all that you can to make sure that we hold these 
problems down to a bare minimum.
    I also agree with Mr. DeFazio. I appreciate some of the 
things that you have put into the FAA bill. There is just no 
excuse, for instance, for any airline to leave people on the 
runway for several hours like we have heard, but those are 
extremely rare instances.
    You know, I have mentioned before that I heard an NPR news 
report several years ago that said, in the Russian Aeroflot 
system, they sometimes had delays as long as 4 days. You know, 
people would come to the airport, and they would find out that 
their plane is not flying that day. And we get upset if there 
is a delay of 40 minutes. I think that people are going to have 
to realize that a big, big percentage of these delays is caused 
by weather.
    Overall, I am going to say that I am amazed that the 
airlines do as good a job as they do. Could they do better? 
Yes. Everybody should always be trying to do more and to do 
better, and the airlines need to improve. But I am amazed that 
so many flights run on time, on schedule and that we have as 
good a service as we do.
    There are some things that we can do as Congress, and there 
are some things that they can do as airlines. I have always 
said that, unfortunately, you know, of people who fly all the 
time, as we do, as most of us do, if we have 98 or 99 good 
flights and one really bad one, the one that we always talk 
about is the one bad one.
    So I appreciate what the airlines do. I want to work with 
you, Mr. Chairman, and with the airlines to try to make a great 
system even better. Thank you very much.
    Mr. Costello. I thank the gentleman from Tennessee.
    Let me say that the airlines are here this morning and the 
representative from the airports to tell us exactly what they 
are doing to prepare for the holiday travel. We anticipate 
unprecedented numbers of passengers traveling during this 12-
day holiday period. We also anticipate, with load factors, that 
90 percent of the seats on these airplanes will be full.
    We realize that there is nothing that anyone in this room 
can do about weather, but there is something that airports and 
airlines can do about informing passengers, about communicating 
with passengers when there are weather delays and nonweather 
delays. And that is the purpose of this hearing, is to tell us 
what they are doing in terms of having additional staff for the 
holiday season, additional equipment and things of that nature.
    Last, before I introduce our witnesses, I would ask both 
our airline executives and others who are in this room who are 
stakeholders--and all of us are, as passengers--to contact our 
friends in the other body, in the United States Senate, and 
tell them how important this reauthorization bill is and how 
important it is to move legislation that will provide adequate 
funding, as we have in the House bill, that will move the air 
traffic control modernization forward. Unfortunately, as we 
have said earlier, it is in the Senate and has very little hope 
of getting on the agenda to pass out of the Senate before the 
end of the year. But I would ask everyone to contact our 
friends in the Senate and to tell them how important it is.
    With that, let me recognize and introduce our witnesses. I 
will recognize each witness under the 5-minute rule.
    You should know that your entire statement will be entered 
into the record. We would ask you to summarize it in 5 minutes 
so that we can get to Members asking questions and enter into a 
discussion about various issues.
    The first witness will be Mr. Richard Anderson, who is the 
chief executive officer of Delta Air Lines; then Mr. David 
Barger, who is the president and chief executive officer of 
JetBlue Airways Corporation; Mr. Ed Faberman, who is the 
executive director of the Air Carrier Association of America; 
Ms. Krys Bart, who is the president and chief executive officer 
of the Reno-Tahoe International Airport and the chair of the 
American Association of Airport Executives; and Mr. Greg 
Principato, who is the president of the Airports Council 
International for North America.
    Mr. Anderson, you are recognized for 5 minutes, please.

  TESTIMONY OF MR. RICHARD ANDERSON, CHIEF EXECUTIVE OFFICER, 
    DELTA AIR LINES; MR. DAVID BARGER, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, JETBLUE AIRWAYS CORPORATION; MR. EDWARD P. 
   FABERMAN, EXECUTIVE DIRECTOR, AIR CARRIER ASSOCIATION OF 
   AMERICA; MS. KRYS T. BART, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, RENO-TAHOE INTERNATIONAL AIRPORT, CHAIR, AMERICAN 
  ASSOCIATION OF AIRPORT EXECUTIVES; MR. GREGORY PRINCIPATO, 
    PRESIDENT, AIRPORTS COUNCIL INTERNATIONAL-NORTH AMERICA



    Mr. Anderson. Thank you, Mr. Chairman and Members of the 
Committee. It is a privilege to be here today representing the 
50,000 professionals of Delta Air Lines and to share with you 
our plans for this holiday season to be certain that we 
continue to deliver consistent, reliable and good air 
transportation to our customers. We share the goals and 
objectives of the Committee.
    My testimony will also provide to you an update on ongoing 
discussions with the Department of Transportation and FAA 
concerning congestion and delays in New York.
    In order to meet the needs of the 1.8 million customers who 
will fly on Delta Air Lines during the Thanksgiving week, we 
have developed a comprehensive plan to deliver safe, reliable 
and excellent customer service. We are fortunate to have great, 
great employees at Delta who are committed to serving customers 
every day.
    And I would note that Delta is the number-one on-time 
airline year-to-date in 2007 among the major network carriers, 
both in arrival performance and departure performance. So we 
intend on continuing that great level of service.
    Weather and air traffic control, obviously, have a 
significant influence on the execution of our plan, so a key 
component of our plan is preparing for uncontrollable 
contingencies--a lot of preplanning and close communication 
with our passengers.
    During each regular operating day, our Operations Control 
Center holds extensive planning sessions to pre-identify 
potential delays and congestion and selectively thinning or 
canceling flights and then rebooking affected passengers. As I 
am testifying today, our Operations Control Center is also 
leading holiday-specific discussions to continue to evaluate 
our crew staffing, equipment availability, aircraft 
positioning, parking coordination, cold weather plans, regional 
partner preparedness, and coordination with the air traffic 
control system. As the holiday season nears, our OCC will step 
up communications with each Delta station and will continue 
that dialogue on a daily or even on an hourly basis throughout 
the season.
    I would note that our preparation has a long and consistent 
record over the holidays. I went back and took a look at our 
performance in 2006. Delta Air Lines ran a 99.8 percent 
completion factor 1 year ago during the 10-day Thanksgiving 
travel period, with arrival within 14 on the domestic system of 
87 percent. So we have a proven track record of being able to 
very effectively handle the large passenger loads while 
delivering industry-leading customer service.
    To ensure our equipment is in top condition and can be 
returned to service quickly during the holidays, our 
maintenance division is fully staffed through the holidays. And 
we have included 87 extra sections--that is extra sections in 
the schedule on highly traveled routes--to be certain that we 
have the capacity to accommodate your regular operations.
    Our Delta leaders across the system will not be on 
vacation. They will be in the airports and in our operating 
centers and in our maintenance centers, engaged and visible, 
assisting our capable frontline employees and our flight crews 
and our flight attendants in delivering high levels of customer 
service. We have a full complement of pilots and of flight 
attendants on reserve status. And we have taken steps to be 
certain that we have sufficient crews in the event of irregular 
operations.
    We have communicated information about our load factors to 
the TSA and to the FAA so that they can plan staff accordingly. 
This should help our customers avoid extended delays at 
security checkpoints or during Immigration and Customs 
inspections.
    As I mentioned before, we plan extensively to prepare for 
and to avoid extended ATC and weather-related delays. However, 
if they occur, we have also made extensive preparations to care 
for affected passengers. At airports like JFK, these include 
close coordination with the Port Authority to bring flights 
with extended ground delays to the gate.
    On that subject, we have endorsed the DOT Inspector 
General's recently released recommendations to improve customer 
experience in the face of extended delays. We place a very high 
priority on ensuring our customers have the best experience 
possible on our flights, and we felt it very important to be 
the first airline to endorse the Inspector General's 
recommendations.
    Let me move very quickly to our commitment to Congress, to 
DOT and FAA to work with all constituencies in solving the 
congestion issues in our air traffic control system and 
particularly in New York. We have worked hard through the ARC 
process to find acceptable answers to congestion and delays in 
the New York City airspace and particularly at JFK. JFK has 
been a very important part of the recovery of Delta Air Lines, 
and it is the linchpin of our strategy of expanding 
international service. We are committed to ensuring that this 
summer and all subsequent summers operate smoothly at JFK. And 
we believe that there are near-term fixes and long-term plans 
that can both be put in place to deliver the levels of customer 
service that our customers expect.
    As you have noted in the recent hearing on congestion and 
delay, we have already taken steps to reduce our peak flying at 
JFK and have fully cooperated with the coordination process 
that the FAA has put in place through the ARC process. We have 
made voluntary changes in our schedule to reduce completely 
turboprop flying at JFK. We have, essentially, gone to the 
largest shell size--or the smallest shell size at JFK will be a 
76-seater, so we have taken 50-seaters and propeller airplanes 
out of the market.
    But it is important that the industrywide solution that we 
reach at JFK is nondiscriminatory and respects the historic 
rights of carriers like Delta, JetBlue and American that have 
invested hundreds of millions of dollars and thousands of jobs 
over the last decades to build their networks at JFK. Delta, in 
fact, bought its network at JFK from Pan American World Airways 
for almost $800 million 15 years ago. And we believe that those 
positions are important positions, and it is important for our 
employees, as we continue our recovery, to have that important 
strategic asset available so that we can continue to execute on 
our strategy.
    A number of improvements can be made to increase short-term 
capacity at JFK, which the FAA recently set at levels back 
equal to what they were in 1969. We need a New York airspace 
czar that should be appointed by the FAA to coordinate New York 
airspace management issues. This worked well in South Florida, 
where we had these issues a couple of years ago, and we saw a 
40 percent decrease in delays.
    However, rather than just advancing these kinds of ideas, 
DOT has advanced a regulatory scheme for JFK that discriminates 
against U.S. airlines. We compete against 60 foreign-flag 
carriers at JFK, and only U.S. carriers--Mr. Barger, myself and 
American--have been asked to participate in schedule reduction. 
We think that it is only appropriate that if there are going to 
be schedule reductions, that foreign-flag carriers, who are our 
biggest competitors at Delta--because two-thirds of the 
capacity we have added at JFK to international markets are to 
international markets that no other U.S. carrier flies to 
nonstop. Our competition are foreign-flag carriers, and they 
cannot be given an advantage, and they cannot be given an 
advantage over our employees. It is just not fair. Forcing 
Delta and U.S. carriers to shrink their operations at JFK 
prevents us from being able to compete effectively. What we are 
doing at JFK is novel, and we should have the right to compete 
fairly.
    There is a clear, effective and nondiscriminatory way to 
manage demand and to reduce congestion at JFK, and it is the 
International Worldwide Scheduling Guidelines. They are in use 
in airports around the world. The issues we face at JFK have 
been experienced at airports around the world, and these rules 
are fair and nondiscriminatory.
    In closing, I give you our commitment and the commitment of 
all 50,000 employees of Delta and their decades-long commitment 
to high levels of customer service that we will work fully with 
this Committee, with the DOT and with the FAA on reforming the 
air traffic control system, making the investments we need to 
make and doing what we need to do to make sure our air 
transportation system meets the growing demands for air travel. 
We are committed to finding a solution in New York. We have 
cooperated fully through the ARC process and will continue to 
do everything we can to play a constructive role in the 
schedule coordination activities that FAA is undertaking.
    That concludes my statement, Mr. Chairman. And on behalf of 
all of my colleagues at Delta and of many of my colleagues who 
were kind enough to take time to come here today, we thank you 
and give you our commitment that we will continue to do our 
very best to serve our customers worldwide.
    Mr. Costello. Mr. Anderson, thank you. When we get into the 
question part, we will be asking you specifically in terms of 
equipment and employees and how many more employees you have 
added for the holiday season and specific questions like that.
    At this time, the Chair now recognizes Mr. Barger.
    Mr. Barger. Thank you. Good morning, Mr. Chairman and 
Members of the Subcommittee. I am honored to be here on behalf 
of the 11,000 JetBlue crew members to tell you about JetBlue's 
readiness for this year's holiday travel season.
    My comments this morning will really highlight the February 
event, being transparent, that we experienced; internal and 
external changes since that point in time preparing for the 
holidays; a comment regarding our home base of operations, JFK 
airport, and certainly our holiday preparedness plans.
    Given how we performed during last February's holiday 
season, I am, candidly, not surprised to have been asked to be 
here today. That said, I am glad to have the opportunity to 
share all that we have accomplished over the past 9 months with 
you.
    Last February was a difficult time for JetBlue, as we let 
our customers down. In fact, to be candid, we failed them. As a 
result of that well-publicized disruption in our operations, we 
have instituted many changes to ensure we don't ever repeat 
that performance. The irony of experiencing this failure as a 
customer-focused company is not lost on us. Our changes have 
been both internally and externally focused and, in both cases, 
dramatic and beneficial.
    With that, let me highlight internal changes that we have 
made at this time.
    Since David Neeleman was here last April testifying about 
our immediate recovery efforts, our founder relinquished his 
CEO position to focus on JetBlue's long-term vision as chairman 
of the board. I assumed the role of CEO approximately 6 months 
ago, and my former position of president and chief operating 
officer has subsequently been filled by Mr. Russ Chew. I 
believe many Members are aware of Russ, who has been 
transforming the FAA's air traffic organization for the past 3 
years. Russ is now in place at JetBlue as president and chief 
operating officer.
    Russ, in turn, has rebuilt and has strengthened his entire 
organization at JetBlue from airport operations to dispatch to 
system operations to crew services and throughout the 
organization. In fact, in the short 6 months, Russ has added 
over 150 years of airline experience through the hiring of four 
industry executives to help with our SOC, or Systems Operations 
Center.
    All of our new leaders and their colleagues have undergone 
rigorous training in new protocols, procedures, processes, 
ranging from the de-icing of aircraft to the communications 
between aircraft to the communications with dispatchers and 
between system operations at airports, in other words, 
interface across our airline.
    With that, let me move on to highlight some external 
changes that we have made over the past several months.
    Last February, JetBlue issued an unprecedented customer 
bill of rights, which I am just holding up for you at this 
point in time, which superseded anything offered by our 
competitors or that was being proposed by lawmakers at that 
time. The provisions of our bill of rights, including its 
clearly displayed and defined terms and customer compensation 
levels, were incorporated into our Contract of Carriage, a 
legally binding document between JetBlue and, in fact, all 
airlines and customers.
    Further, all of the provisions of our bill of rights were 
posted on the front page of our Web site, not buried where you 
would have a hard time finding them. In other words, I would 
like the Committee to know that we have been very transparent, 
proactive and transparent, regarding our customer goodwill. 
Most importantly, all of the provisions were made retroactive 
to aid all of the customers impacted by our Valentine's Day 
disruption.
    At this point, I would just like to comment regarding our 
home base of Kennedy Airport. JFK, though the center of an 
ongoing discussion about capacity and scheduling practices, is 
JetBlue's home. It has been for 8 years. We have invested time, 
planning and resources to properly grow there. We are on budget 
and on time to open our new 26-gate, $875 million terminal 
complex built in collaboration with our partners, the Port 
Authority of New York and New Jersey. This facility is expected 
to open within 1 year, and it represents 5 years of a planning 
process.
    I would also be remiss if I did not mention our support for 
a fair and equitable long-term funding system that can properly 
finance the sorely needed modernization of our air traffic 
control system. JetBlue supports the system where all users of 
the system, private jets and airliners alike, pay fairly for 
the use of their system.
    The key to reducing congestion and delays at JFK and, 
indeed, throughout the entire New York region and Northeast 
airspace corridor, is a satellite-based, modernized system that 
safely maximizes every square inch of the sky. Mr. Chairman, 
your focus and this Committee's work toward this goal is 
greatly appreciated, as we have had several meetings on this 
topic over the past several months.
    In closing and in support of our written testimony of 
holiday preparedness, as one of the Nation's leading providers 
of low-fare travel, JetBlue has routinely had one of the 
highest load factors in the industry. Let us face it: People 
like low fares. Thus, while not every day is Thanksgiving or 
Christmas or a holiday for JetBlue, most of our days come quite 
close. With our new policies and procedures in place, with our 
tremendous investments in training and equipment--for example, 
doubling the number of de-ice pads at JFK from four to eight 
pads, our investment in 25 de-icing trucks for this year, as 
well as 150 new crew members dedicated to de-icing at JFK--and 
also expanding 600 new customer service crew members in the 
airports across our airline, JetBlue is ready for the holidays.
    On behalf of our 11,000 crew members, thank you, Mr. 
Chairman, for the opportunity to testify today.
    Mr. Costello. We thank you, Mr. Barger.
    The Chair now recognizes Mr. Faberman.
    Mr. Faberman. Thank you, Mr. Chairman and Members of the 
Committee. I am happy to be here today.
    My association represents a number of low-fare carriers. In 
some ways, the numbers of people traveling over the holidays 
are as a result of more options for travelers, lower fares, so 
that is a good sign. We are very dedicated to expanding and 
continuing to grow our operations.
    We thank you for holding this hearing and for your 
dedication to both ATC issues and airline competition.
    We have also worked with Secretary Peters and Administrator 
Sturgell on the JFK scheduling issues and other matters 
affecting airspace. I will note that it is critical that 
whatever steps they take should not be steps that close the 
door to competition. I will note that the IATA guidelines that 
Mr. Anderson mentioned could very well do that.
    Unfortunately, these are not new issues. I am going to read 
a quick quote for you. "delays of varying magnitude are 
encountered at many terminal areas. Congestion at these 
terminals frequently requires the imposition of traffic flow 
restrictions, creating backup delays throughout the system. A 
reduction in air traffic delays can be accomplished only by 
increasing capacity or decreasing demands."
    Mr. Chairman, that statement was made in 1968 by the then-
FAA Administrator, and it was the birth of the high-density 
rule that was only supposed to be put in place for a couple of 
years. It has now been in place since that time, and it has, in 
fact, significantly impacted competition and access.
    Our members, since they are growing, they have been 
constantly making changes, adding staff, doing lots of things 
to better serve the traveling public. We work closely with 
airports, but we also need to work and to convince TSA and 
Customs and Border Protection to provide the staffing and 
support that are necessary to move people through terminals.
    There are a couple of things we are doing, as the other two 
witnesses said. There is a lot more communication now between 
airlines and passengers--online, e-mail, phone messages--and 
those communications will continue. We remind passengers of the 
TSA restrictions. We do not want passengers to have to throw 
things away at terminals and have to leave things behind 
because they have wrapped them wrong or they are two or three 
ounces too big. We encourage people to show up early, and we 
remind people about other check-in options.
    Some of my carriers have done some other things. AirTran 
implemented NetTracer, which is a new system that monitors 
baggage, where it is, in case it is misplaced or put on the 
wrong flight. Frontier Airlines has at Denver, which is growing 
significantly, doubled ticket counter positions, has added 
kiosks. There has been a 17 to 20 percent increase in customer 
staff. As Dave Barger mentioned, they have added new runway de-
icing equipment and things to clear off parking areas and gates 
at DIA. Spirit Airlines has done a lot in working with TSA to 
increase check-in machines and better machines to look at 
baggage and things like that.
    These are all things that had to be done. We can control 
some things; we can't control a lot of things. And we are 
trying to make sure that everything is addressed.
    I will note that a carrier that may only have five, six or 
maybe as many as 10 roundtrips at an airport does not have all 
of the same options as carriers of a lot more operations. You 
do not have all of the gates available to you. You do not have 
all of the personnel available to you.
    So, while we all want to make sure passengers are treated 
correctly, in some cases, it becomes a lot more difficult. 
Particularly in bad weather situations, it is not as easy to 
cancel. If you have three flights a day, for example, between 
Denver and National Airport, it is not as easy to cancel and to 
move flights around and back those flights up.
    We look forward to working with this Committee, and we are 
certainly going to continue to work with the DOT and the FAA on 
doing what can be done to improve performance or to improve the 
handling of customers. It is something that we all understand 
has to be number one behind safety in what we all do. We want 
those passengers flying again next week, at next holiday season 
and in the future.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, and recognizes at this 
time Ms. Bart.
    Ms. Bart. Thank you. Chairman Costello, Ranking Member 
Petri and Members of the House Transportation and 
Infrastructure Subcommittee on Aviation, thank you for inviting 
me. It is certainly a pleasure to be here this morning.
    I am Krys Bart, and I am the president and CEO of the Reno-
Tahoe Airport Authority. And I am also currently the chair of 
the American Association of Airport Executives, which is the 
world's largest professional organization representing men and 
women who run airports.
    The Reno-Tahoe International Airport is the 60th busiest 
commercial airport in the Nation, offering approximately 180 
flights per day. It serves as the gateway to the spectacular 
Reno-Tahoe region, a vacation paradise and a growing business 
center. In 2006, Reno-Tahoe was ranked as one of the most 
efficient airports in North America, and we pride ourselves on 
offering leading-edge customer service.
    Mr. Chairman, on behalf of my colleagues at airports around 
the country, I would like to commend you, Ranking Member Petri, 
Chairman Oberstar and Ranking Member Mica, for all of your help 
on H.R. 2881, the FAA Reauthorization Act of 2007.
    Airports are particularly grateful that the 4-year FAA 
Reauthorization Bill would raise the PFC cap from $4.50 to $7 
and would authorize a total of $15.8 billion for the AIP 
program for the next 4 years. I realize I am preaching to the 
choir here, but both funding provisions are key to helping 
airports build the infrastructure they need to accommodate 
increasing passenger levels and the spikes that will continue 
to occur during not only this holiday season but many holiday 
seasons in the future.
    The House has done its part in passing H.R. 2881, and I 
hope that the Senate will follow your good lead. At your 
suggestion, I will make sure we continue to contact them. With 
airline delays and passenger complaints at an all-time high, we 
simply cannot afford to delay funding for critical 
infrastructure projects any longer.
    Mr. Chairman, today, my message is clear: Airports around 
the country are committed to helping passengers by providing 
top-notch customer service and by helping airlines and all of 
the other Federal agencies that we work with to carry out their 
responsibilities. Raising the PFC cap and increasing AIP 
funding will help reduce flight delays and passenger complaints 
in the long term, but I would like to take a moment to discuss 
some specific actions that various airports are taking today in 
the short term to prepare for this holiday season.
    Although passengers may not notice this, when they pass 
through the terminal, airport executives work closely with the 
airlines, the TSA, concessionaires and other tenants to ensure 
that those entities are prepared for the influx of passengers 
during the holidays.
    As an example, the Chicago Department of Aviation offers a 
prime example of coordination that takes place behind the 
scenes before passengers arrive at O'Hare and at Midway. The 
department works closely with all of its tenants to ensure both 
airports are prepared to accommodate increased passenger levels 
during the holidays. When passengers arrive at the terminal, 
airport personnel throughout the country strive to make their 
experience at the airport as convenient as possible. Although 
primary responsibility for passenger and baggage screening 
rests with the TSA, airports routinely help passengers by 
mitigating congestion and delays at the security checkpoints 
and at the airline ticket counters.
    At the Reno-Tahoe International Airport, we deploy 
passenger aides from 4:00 a.m. to midnight to help passengers 
navigate through the terminal and the security checkpoints. Our 
customers and our community will be pleased to know that they 
can find more passenger aides working in the terminal around 
the holidays and during peak travel periods. When the need 
arises, we also add all of our management team out in those 
same areas.
    A number of airports around the country have similar 
programs for passenger assistance. While experienced travelers 
may not directly rely on these services, assisting the many 
holidays travelers who are less familiar with airport 
facilities helps to reduce the wait time for all passengers.
    A number of airports also use the Registered Traveler 
Program to reduce wait times and passenger frustration at 
security checkpoints throughout the year and during peak travel 
times. This is particularly good assistance to our business 
travelers who continue to travel through the holidays. The 
Registered Traveler Program allows TSA to enhance aviation 
security and to improve system efficiency by focusing scarce 
resources on those individuals who represent the highest risk.
    At Reno-Tahoe, we began operating the Registered Traveler 
Program in June. Customers who enroll in our rtGO program 
present their personal identification card at the security 
checkpoint and pass through a separate line that expedites the 
screening process for all travelers, and it allows screeners to 
focus more intently on potential threats. Although the rtGO 
program has only been running for less than 5 months, we 
already have 500 passengers enrolled. These are passengers who 
also use other airports throughout the country, and currently, 
there are 13 airports enrolled in the program. We are very 
excited about this program and are confident that the positive 
results can and will be replicated in airports across the 
country.
    Many airports have extensive snow-removal plans in place 
should they be hit with severe winter storms over the holidays. 
Just like Denver, the Reno-Tahoe International Airport has 
invested hundreds of millions of dollars in new snow-removal 
equipment to speed and to expedite that process, to clear 
runways and to keep aircraft moving.
    As many of you may recall, the Denver International Airport 
was forced to temporarily close on December 20th last year 
because a severe blizzard caused whiteout conditions. The 
Denver Airport has spent a great deal of time and money 
upgrading its snow-removal requirements and equipment to 
prepare for storms this year. The new plan includes enhanced 
communication and coordination with the FAA and the airlines. 
The airport has also been upgrading its snow-removal equipment 
and plans to use additional personnel and snow-melters to help 
remove snow as quickly as possible.
    When storms cause delays in Denver, Chicago, New York and 
at other airports, those delays ripple throughout the entire 
aviation system. At airports like Reno, we feel the ripple 
effects.
    As for passengers who often drive long distances, we 
encourage them to get critical information about potential 
delays before they arrive at the airport. Toward that goal, our 
airport personnel constantly monitor weather around the country 
for potential delays and make every attempt imaginable to 
communicate those delays via TV, the Internet and even by phone 
calls if necessary.
    A number of airports also have emergency contingency plans 
in place should long onboard delays occur during the holidays. 
For instance, the Baltimore/Washington International Thurgood 
Marshall Airport carefully monitors airfield activities and 
coordinates with the airlines when an aircraft is delayed for 
an extended period of time away from the gate.
    Mr. Costello. Ms. Bart, I am going to have to ask you to 
summarize, please, quickly.
    Ms. Bart. Thank you. I will.
    Let me just conclude by sharing with you that airport 
executives around the country look forward to continuing to 
work with Congress, with the administration, with the airlines 
and with other airport tenants to ensure that we are prepared 
for the upcoming holiday season.
    As I mentioned, we are committed to passengers by providing 
top-notch customer service and by helping airlines and Federal 
agencies carry out their responsibilities.
    Thank you again for the opportunity.
    Mr. Costello. We thank you for your testimony.
    The Chair now recognizes Mr. Principato.
    Mr. Principato. Chairman Costello and Ranking Member Petri, 
thank you for allowing Airports Council International the 
opportunity to participate in this important hearing.
    My name is Greg Principato, and I am president of ACI-North 
America. Our member airports enplane more than 95 percent of 
the domestic and virtually all of the international passenger 
and cargo traffic in North America. Four hundred aviation-
related businesses are also members of ACI-North America.
    Holidays feature not only large numbers of passengers but 
many inexperienced travelers as well. Knowing this, each year 
airports put into place a number of customer service 
initiatives to ensure that passengers have a smooth, positive 
travel experience during the holiday season.
    Airports work with local media to provide important 
information for passengers before they leave for the airport. 
This includes things like the need to check the status of their 
flight before they leave home, the availability of parking, as 
well as if delays are expected due to weather, security issues 
or air traffic problems. Airports will also be advising 
passengers to be checking airport Web sites for timely 
information 24 hours a day.
    Additionally, we will remind travelers to decide before 
leaving home whether to pack their liquids, aerosols and gels 
into checked bags or to carry them on in three-ounce-or-smaller 
containers. Many airports provide complimentary resealable bags 
to help passengers contain these items.
    We are also working to ensure that parking booths are open. 
Some airports may have more shuttle buses and extra staff to 
assist passengers with automobile problems. Many airports will 
deploy additional law enforcement officers to monitor and to 
control traffic flow at the curbside.
    Several airport concessionaires, especially food outlets, 
will increase staff on the heaviest of travel days.
    Mr. Principato. Many airports are working with local 
organizations like convention and visitors bureaus and the Red 
Cross to provide supplies to passengers in need, including in 
at least one case access to all-night pharmacies to fill 
prescriptions, if necessary.
    In colder climates, of course, where snow is predicted or 
already falling, airports will have on hand snow removal 
equipment and implement irregular operations plans.
    Ensuring secure and expeditious travel for passengers, as 
well as providing a high level of customer service is a shared 
responsibility between airports, airlines, TSA and Customs and 
Border Protection. However, airports understand the important 
role we play in addressing passenger needs during ground delays 
or severe weather.
    We have contingency plans in place to work with airlines in 
assisting passengers when weather or other factors cause 
irregular operations leading to extended ground delays. We are 
working in cooperation with our member airports, airlines and 
Federal authorities to make the current system better, which 
was the theme of the last hearing at which I testified; and 
we've responded to the Subcommittee's urging in this area.
    In September, more than 40 industry representatives from 13 
airports and 6 major airlines gathered at Dallas-Fort Worth 
International Airport to facilitate better planning to 
collectively respond to significant service disruptions 
affecting passengers. The single most important conclusion was 
the need for airports and airlines to employ the same 
techniques that have long been successfully used to plan for 
emergencies, snowstorms and construction disruptions.
    In January, ACI-North America will convene a meeting in 
Washington, D.C., with representatives from the airports, 
airlines, FAA, TSA, and CBP to further identify needs and 
resources necessary to assure high-quality passenger service 
during major disruptive events.
    To quickly process the expected high volume of passengers 
during the holiday season, it is also critical that appropriate 
airline and TSA staffing be in place. Airports are already 
meeting with their airline partners and the Federal security 
directors at their airports to discuss these important issues 
and implement plans.
    ACI-North America appreciates this Committee's leadership 
in recognizing that expanding physical airport capacity should 
be the first priority when responding to airport congestion.
    While airports are being proactive in working diligently 
this holiday season to assure a positive travel experience for 
our passengers, we believe that H.R. 2881 serves as a long-term 
solution that will provide airports the financial tools 
necessary to build critical safety and capacity projects, 
including new runways, taxiways and terminal space to meet 
growing passenger needs.
    By increasing the ceiling on the PFC user fee to $7, 
airports can meet the growing passenger demand by planning now 
to invest in modern, secure and comfortable and environmentally 
compliant facilities for air travel. And I think it's worth 
noting that this holiday season will be a snapshot of what 
every day will be like in just a couple of years, and we need 
to plan for that.
    In closing, ACI-North America and its member airports thank 
you, Mr. Chairman and Ranking Member Petri, for this 
opportunity; and we look forward to working with you.
    Mr. Costello. We thank you for your testimony.
    Mr. Anderson and Mr. Barger, a question for you. I think--
of course, I have read your testimony and heard you summarize 
your written statements in your testimony that you submitted 
for the record. I would ask that you specifically now address 
the issue of what you have done differently to prepare for this 
holiday season versus last year? I think people specifically 
want to know, both the airlines and the airports, what you're 
doing differently.
    And I note in Mr. Anderson's testimony you indicate that 
Delta has hired 350 pilots this year, but specifically for this 
holiday season, how many additional people have you hired or 
you will be calling out to work that 12-day period? Equipment-
wise, are you bringing additional equipment in?
    So I would ask you to address that specific question; and, 
Mr. Anderson, if you'd like to go first.
    Mr. Anderson. Thank you, Mr. Chairman.
    I would first note for the record that in 2006 we ran a 
very good airline. Delta's completion factor was 99.8 over the 
Thanksgiving holidays and our arrival within 14 on the domestic 
system was 87.2. So we know how to do it.
    I would note that we have--year over year we're up 350 
pilots, 1,300 flight attendants, 2,700 employees in our airport 
and customer service branch. Our spare airplanes, we normally 
operate the airline with about 10 to 12 spares, and we have an 
additional 10 spares over the holidays, and we're running 
somewhere around 85 to 90 extra sections.
    Mr. Costello. Mr. Barger.
    Mr. Barger. Thank you, Mr. Chairman.
    And specifically, year over year, as we look at 
Thanksgiving, the holidays in December and also the peak travel 
period President's day and into Easter Passover into next year, 
specifics with our airport groups starting--we have 3,500 crew 
members--and, again, I work for employees across our system, 
and that is plus-600 crew members on a year-over-year basis in 
preparation for the peak travel period.
    Our home at JFK Airport, 1,116 of those crew members are 
based at JFK, and year over year from the standpoint of winter 
operations, 150 new crew members dedicated to specifically de-
icing and anti-icing. I also commented about increased real 
estate and our investment in de-icing equipment.
    Moving over into the reservations area, we've got a group--
a complement of 1,600 crew members in our Salt Lake City 
reservations office, and we're now 20 percent higher on a year-
over-year basis with that staffing complement. So it's 
approximately 300 crew members to handle the telephones, even 
though most of our tickets are distributed by the Internet.
    Pilot staffing is at 850 crew members, in-flight staffing 
at 2,600 crew members, and our technical component is in place 
as well. We're supporting 132 airplanes this year. And as we 
get ready for the peak holiday period I think it's important to 
note we call really things like vacation and personal time away 
from the organization--as Mr. Anderson commented, this is not a 
holiday for management. They will be displaced across our focus 
cities, including Kennedy and our other bases of operation as 
well.
    So I think we do have a good-news story as we prepare for 
the peak holiday period this year.
    Mr. Costello. From the airport side, Mr. Principato, let me 
ask you, I said in my opening statement and we have discussed 
in meetings, both with you and with others, the critical need 
to communicate between the airlines and airports; and I wonder 
if you might touch on that. What has been done differently 
through this holiday season versus not communicating or working 
with the airlines in the past and anything else that you would 
like to add.
    Mr. Principato. Well, I think it's fair to say that, 
throughout time, airports and airlines have worked very well 
together airport to airport to deal with situations as they 
came up. I think, as we talked about the last time I was here, 
airports working more closely with airlines during irregular 
operations where maybe a plane's out there on the tarmac for 3 
or 4 hours where previously the Inspector General asked the 
airports to be more proactive in working with the airlines to 
deal with that.
    The ultimate decision, of course, is the airline's decision 
about what to do with that plane, but being more proactive to 
offer assistance, offer buses to get people back--I know at 
Dulles they will roll those mobile lounges out there to get 
people back if they need to--helping to get food out and so 
forth and really just working more closely with the airlines in 
those irregular situations.
    I guess I should also say, in terms of the holidays, I 
think it's fair to say that airports are really investing an 
awful lot of people and information in this effort. The more 
information the traveler has before they get to the airport and 
then when they're there, the better off we are. The old 
commercial, back where I'm from in New York, an educated 
consumer is our best customer for the clothing store up there. 
That's the way airports are really tackling this and deploying 
people within the terminal to help passengers who need the 
assistance. And, also, you know, the more people you have in 
the terminal you have more strain on the facilities, the 
restrooms and everything else, and having more staff on hand to 
help with those things as well and making sure things run 
smoothly.
    Mr. Costello. Ms. Bart, did you want to comment?
    Ms. Bart. Yes, thank you.
    Mr. Chairman, I think it can be summed up in enhanced 
communication between the airports and the airlines. I think 
the airline representatives in terms of the local managers and 
through the use of technology are in constant communication 
with their operation centers and in constant communication with 
airport management. That enhanced communication is what truly 
is helping us avoid unnecessary delays and, quite frankly, from 
keeping aircraft holding on tarmac because of delays upstream 
in the system.
    Mr. Costello. Thank you.
    And at this time, the Chair recognizes the Ranking Member, 
Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman; and thank you 
for scheduling this important and timely hearing. I apologize 
for not being here at the beginning of the session, but it's 
impossible to be two places at once, and I had to vote over in 
the Education and Labor Committee. I ask unanimous consent to 
put an opening statement in the record.
    Mr. Costello. Without objection.
    Mr. Petri. And also that a letter from the New York 
delegation to Secretary of Transportation Mary Peters be 
entered into the record at the request of Representative Randy 
Kuhl.
    Mr. Costello. Without objection.
    Mr. Petri. Thank you very much.
    I have a whole raft of questions, but I just would like to 
maybe--I know I have 5 minutes, so I'll get through a couple.
    The dollar is down, and so international travel, especially 
from Europe, should probably be up. I know the figures are 4 
percent increase, and so it's manageable, but you should be 
able to tell from ticket sales and other indications if, in 
fact, there will be a surge of foreign, especially over the 
Christmas holiday season, people from England and Europe coming 
to enjoy the good prices on the east coast and especially in 
the New York area where we already have a lot of congestion.
    Could you comment on it? Do you anticipate that or is it 
likely to be kind of a normal 4 percent or less increase in 
pressure, especially in the east coast where we're already 
congested?
    Mr. Anderson. Since Delta's the largest carrier across the 
transatlantic, it's probably appropriate that I answer.
    We've seen robust demand continuing across the 
transatlantic for the services that we've added over the last 2 
years to JFK and Atlanta, particularly. And we've seen both the 
benefit of the changes in currency or the differences in 
currency, and it has driven very significant demand 
internationally. In fact, the demand internationally is much 
greater than domestic demand.
    Second, I would note that our demand has been very 
significant from Africa, the Middle East and India. Those 
growing economies have really caused a very significant 
increase.
    And so our strategy at Delta has been to be the first U.S.-
flagged carrier to provide nonstop service into the heart of 
Africa, and our goal over the next 3 years is to serve the nine 
major cities in Africa and to expand into the Middle East.
    And so to answer your question, in summary, yes, sir, we've 
seen very robust demand as a result of the currency differences 
in part; and, second, we have seen robust demand from unique 
destinations that we commit service to over the course of the 
past 2 years and that demand has been much greater than the 
demand we've seen domestically.
    Mr. Petri. If I could, you may all want to respond, but I 
just want to say, in a separate area--and there's no one on the 
panel who's directly responsible for security at the airports 
in the Transportation Security Administration, but one of the 
big areas of delay, anticipated or unanticipated, is really not 
within your direct purview. It has to do with surges at 
airports and delays in personnel coming on, and suddenly people 
are missing their flight because they're delayed for an hour 
instead of 20 minutes or 30 minutes getting through the 
security and especially with a lot of inexperienced travelers, 
foreign travelers who may either psychologically or really pose 
additional problems. This could compound delays for the 
traveling public.
    Could you comment on your consulting with or working with 
the security people to make sure that they have adequate 
personnel or you can help expedite that one way or another with 
your customers?
    Mr. Barger. If I may, Ranking Member Petri, thank you for 
the question. There's collaboration with the TSA. This is all 
one dynamic ecosystem; and so we're working with the FAA, 
working with the TSA, the airport operators in our case. For 
example, in New York, the Port Authority of New York and New 
Jersey and many others across our system and the TSA and 
others, we all have to be working in alignment with each other 
and interface with each other.
    And so, while we continue to do that and we've seen 
advancement along the lines of collaboration, sharing 
information such as expected loads and just what we're 
anticipating on the ground, I think it goes--it's so important 
to reinforce the need for the proper capital investment, the 
proper equipment.
    Our new terminal at Kennedy, which, again, we plan to open 
in about a year, will include $15 million worth of the latest 
in-line equipment to support what the TSA staff is doing. But 
it is this--this system does not work properly without the TSA 
at the table with all other parties making sure that we have a 
smooth transition through the airport.
    Mr. Petri. One last quick question. If you're--especially 
an inexperienced traveler, but if you're getting ready to go 
visit your family for Christmas or Thanksgiving, do you have 
any advice as to what they should do? Are there numbers they 
can call or are there ways that they can, you know, interact as 
efficiently as possible with you and with the facilities at the 
airport?
    Mr. Barger. If I may, and I believe Mr. Anderson wants to 
comment as well, but there's--again, I look at this as also a 
good-news story. There's so many lessons learned with the 
investment in technology and allowing customers and crew 
members or families picking up customers to really access 
information like flight-following information, what's happening 
with the flight across the country.
    The use of technology I think is a very important comment. 
Of course, calling telephone reservations and interfacing is 
standard protocol, but also start to see things such as 
interface with the airport authority such as the Port 
Authority, what's expected, what type of delays, also the 
dot.gov Web site. There's many different ways to really gain 
that information. So I think starting with the technology, but 
I think certainly the human element is in place as well.
    Mr. Faberman. I want to add to that and say that almost 
every airline, almost every airport now has Web sites where you 
can get information about what to carry on their aircraft, how 
to best package things. There's a lot more communication than 
there ever has been.
    We're also, as they said, supporting TSA and putting in 
more equipment and giving people more advice ahead of time.
    Mr. Anderson. I'd only want to go back to the security 
question. We don't control the security lines. We have a 
concern about security lines. We even have days this past fall 
in Atlanta, non-Thanksgiving travel periods, where we have 
waits up to an hour in a normal operating day. So we are 
concerned about what these loads will bring in terms of TSA 
staffing, and we're doing our best to coordinate with the local 
security directors to understand what the load factors are 
going to be.
    Mr. Costello. Thank you.
    The Chair at this time recognizes the gentleman from 
Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Mr. Anderson, I applaud you for what I see in your 
testimony about some of the steps you've taken in terms of 
customer protections and, in particular, your intention to make 
much more available on-time performance information and these 
sorts of tools.
    And Mr. Barger, I know that your airline has adopted 
similar.
    Mr. Faberman, what are some of the other airlines doing? 
Since we don't have ATA here, I've got to turn to you and see 
what you know about what other airlines are doing.
    Mr. Faberman. Congressman, I think we're doing many of the 
same things. We're adding people. We have a lot more customer 
service people in place.
    Mr. DeFazio. Are they putting things in the contract of 
carriage like this? Because that's a valuable tool to 
customers.
    Mr. Faberman. Yes, and, you know, we are dealing more and 
more and more with customers before flights, at the airports; 
and if they have problems, we're trying to put other things in 
place.
    As I mentioned, one of the carriers has put in a new 
tracing system for baggage. There's technology out there now 
that is making it easier, although not easy, to handle all 
kinds of problems and disruptions. So we're doing a lot of 
things and including more staffing and equipment.
    Mr. DeFazio. Okay. And then, Mr. Anderson, in response to 
your concerns, just so you have a little historic knowledge 
here, about 4 years ago, the Chairman of the then 
Transportation Appropriations and then later Homeland Security, 
Hal Rogers from Kentucky, arbitrarily cut the number of 
screeners by about 15,000, never--and the Bush administration 
went along with it.
    Mr. Mica and I have asked for years when we had 
jurisdiction here to give us--given their outmoded technology--
you can do security one of two ways: great technology, few 
people; bad technology, lots of people. We're doing it with bad 
technology and few people, which leads to these lengthy lines; 
and we're attempting to challenge the President on this issue 
this year and raise the funding and lift the cap on screeners 
for TSA and give them more money for new equipment and would 
welcome your support in that effort. It's critical, I believe, 
to safety and security and customer satisfaction.
    Mr. Anderson. Our employees in this industry have to have 
an effective security system that doesn't create long lines, is 
effective, ensuring the safety of our passengers and crew 
members; and, in the end, it's not acceptable to not have 
sufficient staffing or sufficient technology to make sure our 
airplanes are safe.
    Mr. DeFazio. Right. We just had Mr. Hawley in Homeland 
Security yesterday or the day before, and he was testifying 
about the millimeter wave portals walk-throughs have proved so 
successful that they're thinking of routinely having all 
passengers go through them. There's no way--you just walk 
through it. It reveals any contraband or problems. You do away 
with the frisking and the wanding and all the selecting and 
everything else. It could increase throughput dramatically, but 
the administration has not seen fit to ask for the funding to 
go ahead and buy these devices; and, again, we would ask for 
your help in dealing with these.
    Mr. Anderson. Well, going back a little bit in history, as 
I recall being here right after 9/11, we, in fact, put a tax on 
our passengers to be able to fund these security requirements. 
So we've put a funding mechanism in place; and the success of 
our business, the safety of our employees and passengers 
depends upon having efficient and effective security screening 
at airports.
    Mr. DeFazio. I want to turn quickly to one other thing 
which isn't the subject matter today, but I think the Chairman 
will agree with me this warrants some real focus by the 
Committee, and it's the discrimination against the domestic 
carriers in favor of foreign carriers.
    I'm totally bemused. I read through that section of your 
testimony a couple of times, on what the administration and the 
FAA are doing here; and, as you know, on the other side of the 
Atlantic, it doesn't work that way.
    Mr. Anderson. No, it doesn't work that way. In fact, it's 
going on on the other side of the Atlantic and the other side 
of the Pacific.
    Our philosophy seems to be that after we engage in open 
skies negotiation and obtain access, that foreign flags have 
unfettered access and don't participate in the schedule 
reductions that Dave and I are participating in right now. And, 
in fact, we had a speech here from the President of British 
Airways last week saying that British Airways was planning on 
using the new open skies agreement with the EU to significantly 
expand service into JFK and didn't think that the flight cap 
issue was going to be an impediment. And that's because the 60 
foreign flag carriers that fly into JFK are not participating 
in the scheduled reduction process.
    Mr. Barger. If I may as well, Congressman, also those 
aircraft that are flying a foreign flag, if you will, they're 
not subject to any type of reporting metrics. And so there's 
more than a few times when I have a fleet that's circling 
because of congestion--it could be on a very good day. It just 
happens to be windy somewhere over North Carolina. But all the 
aircraft are making their way into JFK because there's a 
different set of rules for those aircraft, and that simply is 
not fair.
    And it's not that I want to punish those aircraft. Just 
participate equally. Because those airplanes are bringing in 
customers that are connecting into the Jet Blue system that has 
the largest airline system at Kennedy. So, again, it has to be 
this ecosystem of everybody participating equally.
    Mr. DeFazio. My time has expired, Mr. Chairman, but I would 
hope the Committee would follow up strongly on that.
    Mr. Costello. It is a major problem, and Mr. Anderson 
covered some of it in his testimony. I certainly agree, and we 
will.
    Let me inform everyone that we have three votes that have 
been called on the floor of the House. We have 10 minutes to 
get to the floor and record our first votes. So we will stand 
in recess, and we would ask our witnesses to come back. We have 
other Members who have questions. We would anticipate coming 
back from voting, let's say, at 11:45, about 30 minutes from 
now.
    The Subcommittee will stand in recess.
    [recess.]
    Mr. Costello. The Chair would ask the witnesses to take 
their place at the table.
    At this time, the Chair recognizes the gentleman from North 
Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you witnesses with us today.
    Folks, my comment earlier about my constituent who said he 
would prefer to undergo a root canal procedure rather than 
negotiate airports, that notwithstanding, I agree with what Mr. 
Duncan said earlier. I think airlines and airports generally do 
a good job, but the shortcomings and the failures are the ones 
that permanently linger; and, hopefully, we'll overcome that 
one of these days.
    I read with interest in the hearing memo, Mr. Chairman, 
that during the holiday season some airlines are boarding full 
flights earlier to ensure on-time departures, reserving seats 
to accommodate passengers whose flights might be canceled or 
delayed, and placing kiosks in secured boarding areas to help 
passengers that need to be rebooked.
    Can any of these plans that you all are emphasizing during 
the holiday season be permanently implemented year-round to 
address the problems? Mr. Anderson and Mr. Barger.
    Mr. Barger. Thank you for the question, Congressman; and 
the answer is yes. And, in fact, I think many of these 
enhancements are part of what Jet Blue, Delta and other 
airlines are doing to really make the travel experience more 
seamless. For example, the use of kiosks, whether it's in gate-
hold areas or at ticket counters, the whole issue of allowing a 
customer to self-service, make a change to a reservation if in 
fact there is a disruption, as opposed to stand in line in the 
service center, make a telephone call. So examples like that 
and so many more, whether it's boarding in a timely manner, 
that's just good business 365 days of the year.
    So I think we look at the Thanksgiving period and the 
holidays upcoming, it's a little bit different customer, much 
more of a family and strollers and wheelchairs and what have 
you, and just it takes a little bit different type of 
preparation because it's different than the Monday through 
Friday business traveler. So we do all that and more to make 
sure we're communicating expectations to our staff.
    Mr. Coble. Do you concur, Mr. Anderson?
    Mr. Anderson. Yes, sir.
    Mr. Coble. That's encouraging. I look forward to 
experiencing that.
    Let me put the question to either or all of the three 
witnesses to my right.
    Record load factors are expected this holiday season, 
Thanksgiving and Christmas, and planes will inevitably be 
filled. How will both the network and low-fare carriers 
accommodate bumped passengers who miss their flight? How will 
you all be able to help those folks get home for Thanksgiving 
or Christmas dinner in a timely way?
    Mr. Faberman. Well, I think, Congressman, one of the things 
that airlines are doing now is they're reducing the number of, 
quote, overbooked seats on flights. So we're not selling as 
many seats on each flight as has historically been the point. 
So we're trying to keep those numbers as reasonable as 
possible.
    Secondly, you know, we--I think as both Richard and David 
talked about before, on a continuing basis airlines now are 
having conferences within their organization and within their 
systems to look at where--how flights are operating. And if 
they see any type of delay, like this morning there were some 
delays going into New York, airlines automatically are 
beginning to look at what other options are out there. Is there 
a close-by airport we could put people on a flight to that 
airport? You know, what time is our next flight? And even 
working with other airlines on some of their flights.
    Mr. Coble. Ms. Bart or Mr. Principato?
    Ms. Bart. Yes, thank you.
    I think that there are two important aspects to this from 
the airport perspective. The first is to have additional staff. 
At the Reno-Tahoe International Airport, we call those people 
passenger aides who help take stranded passengers back to 
ticket counters to rebook or back to kiosks to rebook.
    While airports cannot do the booking for them and airports 
can't control the available seats, we can work very hard to 
make our passengers feel comfortable. So if they are stranded 
or if there are additional delays because they've been bumped 
from a flight and have to wait for another, I think those 
common conveniences of having additional concession 
opportunities, having places to sleep if necessary by virtue of 
cots, you know, having water and food available, those are the 
kinds of things that we have and are going out of our way to 
make sure we have to support that customer and that passenger.
    Mr. Coble. Mr. Principato.
    Mr. Principato. I just want to add just a little bit to 
what Krys said, and I think she covered it quite well. But, as 
I said earlier, airports are going even above and beyond what 
you would think, working with community groups, as I said 
before, the Red Cross, convention and visitors bureaus, local 
pharmacies, food outlets and so forth to make sure that that 
any passengers who are bumped and have to spend an inordinate 
amount of time at the airport are well taken care of.
    Mr. Coble. I thank you for that.
    And let me conclude, Mr. Barger, with you. What caused JFK 
to go from I guess what was a more or less an orderly 
atmosphere when they attracted you-all 8 years ago to what I 
guess is universally now known as chaos? What happened?
    Mr. Barger. Well, it's--when we started flying, you're 
right, the number of flight activity or movements per day 
looked at 750 movements, and it's now in excess of 1,400 
movements per day. The reason we originated our flying at JFK 
is because in the New York metropolitan area there was just so 
much in the way of capacity that was not being utilized. And so 
I think--I'd like to think that our success in growing Kennedy 
has certainly been attractive to other carriers and their 
growth plans.
    It's certainly what's happening with Delta and the growth 
and American Airlines and their new terminal and growth, as 
well as our growth and the international carriers. It's all 
been as a result of really a capacity that wasn't being 
utilized over a period of time.
    I think today, and it--we would like to--even though we 
have asked and we appreciate the Secretary being involved with 
taking a look at potential hourly caps at Kennedy, it's 
unfortunate because really our headline is one of there's 
additional capacity that we should go after through the use of 
technology and the proper investment. And Kennedy Airport today 
is the primary gateway in and out of the United States. With 
some type of limitation, that is not the right thing to do as 
we move into the future.
    Mr. Coble. Mr. Anderson.
    Mr. Anderson. Yes, Congressman.
    First, I'd like to thank all of our great employees at 
Delta from JFK that are here today; and I think they know well 
the challenges that we face there.
    But at a base level, JFK, according to FAA-published 
statistics, should operate at a capacity of 100 operations an 
hour. This past summer it operated at 65. It is an airport with 
four runways. It's double the size of La Guardia, but it 
handles the same number per hour as La Guardia.
    So when we think about capping or putting other 
restrictions in place, we shouldn't be doing it until we've 
figured out how we run the airport in an efficient way. It's 
got two widely spaced parallel runways, and the airport should 
operate at the level it was designed at some many years ago, 
and it's not. And in fact, its production has been going down 
year over year.
    And the carriers that serve there, particularly the U.S.-
flagged carriers--Jet Blue, American, Delta--the carriers 
should be able to expect that the airport is operated 
efficiently and safely at its maximum capacity.
    Mr. Coble. I thank you.
    Mr. Chairman, I think this has been a good hearing. I yield 
back.
    Mr. Costello. I thank the gentleman.
    Let me ask a point of clarification before I go to the 
gentleman from Iowa. In ATA's press release--and you mentioned, 
Mr. Faberman, blocking of seats or maybe not overbooking 
flights to the extent that might happen normally during the 
holiday season. I wonder if I might ask the three of you--in 
particular, Mr. Anderson, Mr. Barger and Mr. Faberman--to 
address that issue.
    In fact, ATA, I have their press release here. It says, one 
of the things that will be done out of many will be blocking of 
seats in key markets on peak holiday travel for its use to re-
accommodate passengers whose flights are cancelled or delayed 
due to inclement weather. Can you explain for those of us here 
in this room what you mean by that, the blocking of seats in 
key markets? Mr. Barger?
    Mr. Barger. I will.
    From a Jet Blue perspective, Mr. Chairman, probably the 
best way I could clarify that with our operational plan is, as 
we're--over the period of the holiday, we'll end up with an 85 
to 90 percent load factor. Certainly, there's some days that 
will be quite peak, the Sunday after Thanksgiving, the 
Wednesday before Thanksgiving.
    And as we look at potentially accommodating disruptive 
customers, our methodology has been one of operational spare 
aircraft. And so our fleet of 132 airplanes will have 127 
flying, 5 operational spares--Boston, New York, Long Beach, 
California, as well as down in Ft. Lauderdale, Florida. So 
that's the way that we take a look at accommodating a disrupted 
traveler over the course of the travel experience.
    Mr. Anderson. Flights are overbooked because the no-show 
rate is very high. So when we set up overbooking levels, each 
flight has an overbooking level based upon its historic no-show 
rate. And the reason we have to do that is, when people don't 
show up, then the airplane's going to fly with an empty seat, 
and at $90 oil or $70 oil, we can't afford as a business to 
have people not show up. So we overbook.
    What we do during Thanksgiving, understanding that the no-
show rate goes down, is you reduce the overbooking levels. You 
operate extra sections which is in very dense markets with a 
lot of traffic. You put extra flights in. So we'll run some 80-
some-odd extra sections.
    And then, lastly, our load factor's predicted to be in the 
low 80s through Thanksgiving. So we have a fair amount of 
capacity in the schedule; and between those three factors--
reducing the overbooking level, running extra sections and 
running a slightly lower load factor than we ran over the 
summer--we will have sufficient capacity to be able to 
accommodate rebookings.
    Mr. Faberman. I just want to add to what Richard said, and 
it is a different set of customers that fly during the brief 
holiday period than normally. And, you know, when you have a 
lot of business customers flying, people hopping back and forth 
and different things, they will frequently miss flights or 
change flights. So your system needs to prepare for that and 
needs to understand that we don't want to leave with 15 empty 
seats. So at certain times of the year, certain times of the 
week, you do tend to overbook a little more.
    During the holiday time period, it's a lot more family 
travel, lot more people going on vacations; and those people 
don't not show up as frequently. They show up, and they're 
there, and they're ready to go, and they don't really switch 
flights a lot.
    So if you just book 85 percent, 90 percent of the aircraft, 
you're going to have that many people; and that gives you some 
extra seats that at the last minute you can hand out.
    Mr. Costello. I thank you; and the Chair now recognizes the 
gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman, and appreciated the 
give-and-take and discussion.
    I've got a couple of questions about some of the things you 
said I want you to clarify. But just before we do that, there's 
something that kind of grinds on me, if I could say it. I think 
that I certainly am and I think everybody on the Committee is 
advocates for the airlines, and we've shown that over and over 
since 9/11.
    We're also advocates for general aviation, and it irritates 
me to see in your publications in the pocket of your seats the 
distortion about what's going on on this situation about 
general aviation. So quit it. That's my suggestion to you.
    If you want to comment on it, you're welcome to do it. But 
you just don't make any mention--get all the notes you want, 
but you don't make any mention about the taxation on fuel and 
the things that general aviation pays for.
    I'm going to continue to support you, because I know you 
are extremely important to our economy and service to our 
country in many, many ways, and we'll continue to do that, but 
come on, let's do what's right.
    Now, Mr. Anderson, you made some comment--and if you want 
to comment, you're welcome to do so. You made some comment 
about describing or talking about a check-in process called 
drop-and-go, and I don't know if I understand all that. So, 
just briefly, would you say something about that?
    Mr. Anderson. The goal is to make the process of moving 
through the airport as simple and as easy as possible. So we 
have devised a system whereby you check in at home, check in at 
home on the Internet. You can verify what time your flight's 
leaving; and at that time, when you check in, you check in at 
home on the Internet and designate the number of bags you're 
going to check. And then as soon as you get to the airport 
there are separate areas both on the curb and in the lobby--we 
call it drop-and-go. You walk in, you're already checked in, 
you scan your boarding pass that you printed at home under a 
reader, and your bag tags print out. We have an employee there 
that's ready to help with that.
    Mr. Boswell. Reclaiming my time, that sounds great. I 
appreciate it, and we use the Internet to get our pre-boarding 
pass. So at the time I'm assuming you can do that. So I 
normally don't try to check baggage because I like to have it 
when I get to the other end. So I won't go there, but that's a 
good idea. I hope that you continue working on that.
    The other one I think is that I believe it was one of you 
mentioned--I've got a moment here or two left. I think it was 
you, Mr. Barger, who was talking about new processes to handle 
lengthy delays, including the on-board delay escalation 
procedure. So would you just expand a little bit on what the 
on-board delay escalation procedure is and how it will affect 
passengers on aircraft?
    Mr. Barger. Yes, I will. Thank you, Congressman, and also 
thank you for your comments regarding the importance of general 
aviation as part of the community using the skies. We certainly 
respect those comments.
    From the perspective of the escalation of a customer on an 
airplane, and probably the theme I would use is one of 
situational awareness, and, to be very candid, lessons learned 
from our February event up in New York, where we put in place 
and now FAA endorsed and approved an on-board escalation policy 
at 60 minutes, 120 minutes, 180 minutes--but through our system 
operations center, in coordination with a local airport, in 
coordination with our crew and dispatch, that we have perfect 
visibility into how long a customer has been on an aircraft, 
whether that's waiting to take off or whether that's waiting 
for a gate. And, candidly, we didn't have that in place in the 
February time frame when we had the incident earlier this year.
    To also support when, in fact, we are in those type of 
situations--and, hopefully, they're very, very rare--that's 
where we have instituted our bill of rights to make sure that 
we make good on our commitment if, in fact, we've broke a 
contract, if you will, with a customer. And that could be for a 
delay or a cancellation but certainly making sure that the 
information flow is steady. Because, at the end of the day, 
number one, what customers and crew members want and expect is 
crisp, timely, honest communication.
    Mr. Boswell. Thank you very much.
    And that last part is I--you know, I went through a 
miserable day a week ago Monday getting here with delays on 
aircraft, maintenance, three in a row, and it can't be helped. 
You've got to pre-flight, you've got to do those things, you've 
got to take your safety checks, and I understand that, and I 
don't quarrel that at all. It really makes the passengers--
being a frequent passenger, to know what's going on, and just 
say it like it is. Just tell the truth and be quick to say it. 
And it just stops a lot of bad feelings. And so I want to 
encourage everybody, please keep picking up on that, because we 
like it.
    And back to--and I'm going to--I have to go. My time's up. 
But back to my earlier comment on we do support you, and you 
know that, and we also support aviation, general aviation and, 
you know, and a lot of your passengers are people that are 
involved one way or another not only as pilots but users and 
owners of general aviation. So I would hope that we do what I 
asked you to do earlier.
    And thank you, Mr. Chairman. I yield back.
    Mr. Costello. Thank you.
    And the Chair now recognizes the gentleman from Michigan, 
Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    And usually one sermon a day is enough, but let me just add 
to Mr. Boswell's sermon. Get off GA's back. I have a couple of 
reasons for that, in addition to the one he mentioned. That's 
going to be your source of pilots in the future, I'm convinced. 
If you look at what is happening to the Armed Forces, the 
number of pilots produced by the Armed Forces is likely to drop 
fairly dramatically in the future through unmanned vehicles and 
other uses of equipment. So just remember that the pilot in the 
GA cockpit may be one of your pilots someday.
    Having said that, let me make a few comments as a frequent 
flier and also as one who loves aviation and really supports 
your industry.
    It seems to me one basic category that you have to be 
prepared for, even though it's expensive to prepare for, is the 
disasters. I'm very familiar with one which happened in Detroit 
some years ago. I believe Mr. Anderson's probably even more 
familiar with that one, when the sudden drop of 10 or 12 inches 
of snow just stopped the airport cold. There were so many 
mismanagement decisions made at that time; and it was finally--
started to move when a passenger, who happened to have Mr. 
Anderson's phone number, gave it to the pilot. The pilot called 
him, described it and suddenly things started moving. It 
shouldn't take that.
    But there have been other disasters. You've had some 
similar ones recently. Jet Blue encountered one.
    There has to be more planning and more training for 
emergencies. They are going to happen, and I recognize that 
they're expensive to plan and train for because they're 
infrequent. And so they--it may seem like they're not 
worthwhile, but it has to be done because--simply because of 
the huge, bad publicity you get when those happen. So I 
encourage you to do that.
    Something else I think there is a legitimate complaint 
about, and I understand that the tradition of the ship carries 
over to the airplanes. The pilot is the captain of the 
airplane, and he makes the decision, and that's it, period.
    But I have been on planes. I've sat on the tarmac a very 
long time, and one of them, which is pre-9/11, and those of us 
who are on this Committee had permits to be in the cockpit if 
we wanted.
    I was in the cockpit of one that sat on the tarmac for 3 
hours. Passengers were getting restless. The flight attendant 
came up front, said we have a claustrophobic woman who's about 
to lose it, et cetera, et cetera. And the basic reason the 
pilot didn't want to go back to the airport and just let the 
passengers off until he could be released was because he didn't 
want to lose his place in the flight line-up, and he, you know, 
just sat there in the hope that at some time the weather would 
clear and he could take off. And if he went back to the 
terminal, he would lose it and have to go back through the 
process.
    I think it would be very worthwhile with a lot of these 
cases that you work with the FAA and the airports to provide in 
a situation like that, where pilots and a plane are delayed, 
they get accelerated departure permissions to take off. It's 
only fair, and if you don't have that, you lose not only lose 
your place in line, you also lose your place in line at your 
destination. And, as you know, one late flight perpetuates a 
lot of problems for passengers trying to get onto other 
flights. They get overcrowded and so forth.
    So I would hope that you would consider that, and I will 
give you a minute to comment about that.
    I just have one other issue to raise, wondering what is the 
role of the FAA's air space redesign efforts in reducing 
congestion and travel delays. And if it's implemented, how will 
that affect your customers? What can be done to implement it?
    So I've thrown out a lot of things. We will just go along 
the line and get responses as time permits.
    Mr. Anderson, you want to go first.
    Mr. Anderson. On the issue of taxi-out delays and 
prioritization, you know, there are a number of task forces. 
There's actually one working right now with FAA on those kinds 
of steps. So, you know, I would encourage us as an industry to 
take your comment under consideration and determine how we can 
work through the prioritization when you do have long ground 
stops of takeoffs.
    Mr. Ehlers. Let me just interject here. You have a 
Committee here who is willing to help you, by and large. So if 
you need our help, don't hesitate to contact the Chairman and 
Ranking Member.
    Mr. Anderson. Thank you.
    With respect to next generation, FAA is critical. If you 
look at FAA forecasts, it's forecasted that U.S. Emplanements 
will grow from about 700,000 this year to a billion in the next 
5 years. That is a credit to the success of deregulation and 
the accessibility of air travel to every American.
    In order to be able to accommodate that demand, we have to 
have the next-generation air traffic system. You use GPS to 
navigate in your automobiles. We don't use it to navigate 
airplanes. We still fly in the national air transportation 
system the same way we flew 50 years ago, from VOR to VOR to 
VOR with set routings; and in order to accommodate the growth 
that is an important engine of the American economy, we have to 
have the investment in capacity and safety to be certain that 
we can accommodate a billion passengers a year. And I'm certain 
this Committee and Mr. Chairman want to be in a situation where 
we're sitting here 5 years from now and we've been able to make 
the investment necessary to meet the demand of the consumer, 
the travelling consumer today.
    So next-gen is critical to being able to do that; and in 
the short run, between now and the time that we have all of the 
next-gen developments in place, we need to work cooperatively 
to do those things that will incrementally increase capacity.
    USA Today had a very good article about 2 weeks ago about a 
number of airports around the country that have actually 
reduced their delays over the past year by investment in air 
traffic and airfield capacity.
    So we need to take all the steps in the short term to meet 
demand, and we've got to make the investment as a country and 
the commitment as a country to implement the next-gen system in 
order to meet the billion passengers that are going to be 
flying in the airways over the course of the next 5 to 10 
years.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman and Ranking Member.
    And, to the panel, I hail from St. Louis, Missouri. We have 
Lambert International Airport there, which is among the top 10 
busiest for holiday travel. We appreciate the presence of 
Delta, Jet Blue, American, Southwest, and many others there. 
They've been part of growing the service back at Lambert.
    But the environment for this holiday season, where we 
expect travel up 4 percent, flights to be 80, 90 percent full--
we saw a year with record low on-time arrivals, and media 
reports about this environment certainly have given the 
traveling public and consumers reason to be concerned.
    That's why I especially appreciate the reports here in 
terms of your all-hands-on-deck approach to being ready for at 
least all the contingencies that you can be; and if there's 
anything you can do about the holiday weather, that would be a 
plus.
    But I guess I'd like to ask the question in terms of the 
human elements that were mentioned in the testimony in terms of 
advice for the traveling public, in terms of what they can do 
to help with the process, and especially for those nonfrequent 
fliers that may not be as used to the traveling regime now. 
What's the best advice you can give to those traveling 
consumers?
    Mr. Anderson. Okay, really practical. One, check the 
Internet for the airline you're traveling on and verify what 
time your flight's leaving.
    Second, determine from the Internet site what time you're 
supposed to report for your flight, domestic or international.
    Third, it's always practical to have somebody drop you off 
at the airport at the front. Then you can avail yourself of 
skycaps and check in on the curb.
    Use the Internet technology. You can check in at home on 
virtually every airline, and you can designate how many bags 
you're going to check. Take advantage of that. And when you get 
to the airport, you just merely have to go to the skycap to 
drop your bags or go to into the ticket counter.
    When you get to the security checkpoint, mind the carry-on 
policies. You know, the carry-on policy is one right-sized 
carry-on. Congressmen know this probably better than any other 
travelers in the world. Mind the carry-on policies and don't 
carry wrapped packages through the checkpoint because you may 
have to unwrap them.
    And my tip of the day is always wear slip-on shoes.
    Mr. Barger. If I may, Congressman, I think, just adding to 
Richard's comments which cover the whole travel experience, but 
at the same time it--I think we have a good news story as well, 
and we have to be prepared for it. I think that airlines and 
airports and FAA, TSA, tremendous collaboration, but, at the 
same time, don't come out 4 to 6 hours early to the airport.
    There's almost scare stories that are out there about how 
bad it's going to be. It's not the case. We just went through a 
July and August time frame that was actually--the load factors 
were probably as high over an extended period of time, and it's 
a tough period of time because of convective weather activity, 
and we do run the risk of Mother Nature and winter operations 
this time of the year. But, by all means, come to the airport 
with all of us, crew members and our own staff, with the proper 
attitude, because there's a tremendous amount of preparation 
that's gone into this holiday. But be timely but not too early.
    Mr. Principato. If I could just say, too, last year was a 
really good, I think, test of the system because it was the 
first Thanksgiving where we had the new liquids and gels rules, 
and you had all those first-time travelers.
    I've been through that St. Louis Airport with infant twins 
in the past, and my wife grew up in Illinois, and I know what 
this is like. And so you have people who don't travel all that 
often; and, last year, they were going to come with liquids and 
gels. They didn't know what shampoo they couldn't take and 
whatever.
    The airports got together with TSA and the airlines to 
really get that information out. We put a lot of people on the 
ground; and, really, I think last Thanksgiving went actually 
pretty well, pretty smoothly. Weather, of course, cooperated, 
which is nice; and you mentioned that earlier.
    I think last year was a pretty good run-through for what 
we're going to see this year, because we had those new rules in 
place that so many people hadn't experienced before. And 
because of the information and the human resources we put into 
it, it actually went pretty well.
    Mr. Carnahan. Any others?
    If not, thank you very much; and I yield back.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman; and I apologize 
for being late and not being able to hear you on the testimony. 
But I've been in another hearing with the TSA talking about 
some of the things Mr. Carnahan just asked as far as carry-on 
luggage.
    I will just tell you from the experience--and I fly Delta 
most of the time----
    Mr. Anderson. Thank you.
    Mr. Westmoreland. --you know, there's people that carry on 
everything but the kitchen sink, and so I hope that we would 
maybe enforce that a little bit better.
    But, Mr. Anderson, I want to thank you for being here. As 
you may or may not know, I represent more Delta employees, 
retired and active, than any other Member in Congress; and I'm 
very proud of that. I'm also very proud of the fact that my 
wife worked in marketing and advertising for Delta when we were 
first married. I was a ramp rat at Delta, actually bled grey 
and blue for a long time in my life; and my daughter was a 
flight attendant for Delta. So we've had a lot of family 
connection, not to mention the number of friends that we have 
that work for Delta.
    And, you know, as a congressional delegation, I think that 
we have worked very hard for Delta Airlines. We went through 
the pension, the bankruptcy; and we're so proud of Delta, that 
they're out of bankruptcy and that they are doing well and the 
business plan that was came up with is doing good. And, of 
course, with oil being over $90 a barrel, I know that it didn't 
really work into your recovery plan that well; and we hope that 
in the future that will come down.
    But I must say that I was disappointed to read in the paper 
about merger talks with United, kind of blind-sided, you know. 
And it's one thing in this political business when the press 
calls you up and--especially after all the things that we've 
gone through with Delta--and blind-sides you, wanting you to 
quote on the economic engine for the world's busiest airport, I 
believe, talking merger with another airline.
    Mr. Westmoreland. And so I was disappointed in that, and I 
read the release that Delta put out, and I think your exact 
words were that there have been no talks with United regarding 
any type of consolidation transaction, and there are no such 
ongoing discussions.
    I just want to hear it from you. I want to look at you 
eyeball to eyeball.
    Mr. Anderson. That is fair.
    Mr. Westmoreland. I want you to look at me, eyeball to 
eyeball, and tell me that Delta Airlines has not been in 
discussions or in negotiations or in anything else or in 
communications with United Airlines about a merger.
    Mr. Anderson. It has not. I was actually as surprised as 
you were--you probably as a Congressman are, maybe, little more 
used to this--reading in the paper that I had been in these 
conversations when I have not talked to Glenn Tilton or any 
other executive at United Airlines since the last time I was in 
the industry about 4 years ago.
    So there are no discussions. There have been no 
discussions. And I think I was as surprised by that Associated 
Press article as you were.
    Mr. Westmoreland. Well, I appreciate that. You know, we 
feel like, especially with the roots of Delta, that you are a 
good southern company.
    Mr. Anderson. We are.
    Mr. Westmoreland. I know you are.
    Like I said, I have been part of that family. We do not 
want the family moving north. We want to keep the family in 
Atlanta. We want to keep it together, and we want it to be that 
strong, viable airline that it started out being.
    And I know we have gone through some tough times, but we 
are here for you. But we also want to be kept informed of any 
future plans that Delta may have; and I know you cannot let us 
in on everything that you are doing, but you have been very 
kind with the workout plan and with other things that you have 
kept us informed about.
    So I am just asking you to keep us informed, to keep the 
family informed. We want you to stay home.
    Mr. Anderson. You know, I could not agree with you more. We 
will keep you informed. You know, it is a great airline with a 
great legacy that goes back to Monroe, Louisiana----
    Mr. Westmoreland. Absolutely.
    Mr. Anderson. --in 1926, and that is a really important 
part of what Delta is.
    So you can count on us to continue to do what is in the 
best interest of the employees at Delta and of the shareholders 
at Delta and of the communities we serve. So thank you.
    Mr. Westmoreland. Thank you very much.
    Mr. Chairman, again, I apologize for being late, but I 
appreciate your giving me the opportunity to ask a question.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    I have three questions for the panelists today. Let me 
preface my thoughts by saying I am the new member of the group. 
I got sworn in all of about 9 weeks ago, so I fought to get on 
this Committee, and I am happy to be with you today.
    My first question is having to do with--in local 
government, we have a system called a "reverse 911 system." 
What that essentially does is--you have heard several questions 
from Members here, asking you what can members of the public do 
to be better prepared to process through the system; yet, I did 
not hear much discussion on your end of what you could do. And 
it is a little difficult because we have to assume in my 
community, for example, that not everyone has a computer, that 
not everyone has the Internet, and so repeatedly hearing the 
answer, "Well, check the Internet and check this and that."
    I wanted to ask you: Sometimes when I have made flight 
arrangements through a travel agent, they do ask me "What is 
your phone number?" I am just curious. Has there ever been a 
discussion about doing a more reverse system of putting out an 
automated or a robo-call saying, you know, your flight is going 
to be delayed 1 hour or whatever it is, or doing a reverse e-
mail?
    What can you do to be proactive to inform the consumers of 
problems that might be occurring?
    Mr. Anderson. Delta actually has that system, and I should 
not have just referenced the Internet.
    We have 6,000 people in our reservations department that 
are available on a toll-free number to be able to answer 
questions about flight availability. Dave, at JetBlue, has the 
same thing, as do the carriers that Mr. Faberman represents 
here, so we have both Internet and telephonic availability.
    Secondly, we do have the ability--we call it the 
"AutoDialer"--where you can auto-dial out and send e-mails 
updating people on their flights. So those systems are in 
place.
    Ms. Richardson. Do you use them?
    Mr. Anderson. Absolutely, because you have got to have them 
available for schedule changes and irregular operations, 
because we do not want people to come to the airport if a 
flight is cancelled, and the earlier we can plan in advance of 
an irregular operation and let the passengers know and get them 
reaccommodated, the quicker we will be able to recover in a 
weather incident.
    Ms. Richardson. Mr. Chairman, I would like to ask, can we 
determine if all of the airlines have this sort of system and 
if they are utilizing it?
    Mr. Costello. I did not hear the gentlelady.
    Ms. Richardson. The systems that I am talking about, he 
called it "automatic redial." I call it kind of a "reverse 
911." I am just curious if all of our American carriers, flag-
carrying carriers, have this sort of system and are they 
utilizing it.
    Mr. Costello. Mr. Anderson, can you answer that?
    Mr. Anderson. As a general rule, all of the major carriers 
have auto-dialers, which is an outbound calling system or an e-
mail system that lets flyers know about changes in their flight 
plans.
    Ms. Richardson. With all due respect, Mr. Anderson, my 
second question was, though, Do you use it?
    Mr. Anderson. Yes. Yes.
    Ms. Richardson. The reason why I ask the question about 
your understanding of all of the carriers is that I fly quite a 
lot, and members of my family fly quite a lot, and I recall 
very rarely getting notification. So that is why I am asking, 
can we verify it, in fact.
    Just because carriers have the system, it does not mean 
that they are using it.
    Mr. Anderson. I cannot speak on behalf of other carriers. I 
can speak on behalf of Delta, and we use it.
    Ms. Richardson. Okay.
    So, Mr. Chairman, what would be the process of getting that 
information to this Committee from the other carriers?
    Mr. Costello. We will check with the ATA to, in fact, have 
them survey the airlines----
    Ms. Richardson. Okay.
    Mr. Costello. --to get an answer.
    Ms. Richardson. My second question is having to do with--
Mr. Anderson, it really caught my eye when someone asked the 
question about the TSA, and you were very specific in saying 
that, you know, the TSA does not report to you, which I clearly 
agree with and understand.
    Is there any ongoing meeting or position that carriers have 
with TSA to discuss what is happening--what is happening with 
the loads at various airports when they have delays? Because 
you seemed a little bit frustrated, and I know I am and many 
consumers are as well.
    I was traveling in the LAX area, and a person noted to me 
that several of the TSA members were being laid off, leading up 
to Christmas. I was shocked given, one, how long we wait and, 
two, given the incoming traffic that will be occurring.
    So are you regularly advised on what is happening in these 
various airports? Is there an ongoing process or group or 
advisory committee that you are able to participate with about 
these issues?
    Mr. Anderson. I believe the ATA has a security committee 
that works on behalf of the industry.
    At the local level, there is generally a very close working 
relationship between the Federal security director at an 
airport and the airlines operating in the airport, you know, 
providing information about what load factors will be by the 
time of day and what the TSA can expect in terms of passenger 
volume.
    Ms. Bart. I would certainly like to add that my colleagues 
make a point of having regular--and I mean at least weekly 
meetings--that include the TSA and the local airline managers 
from an operational standpoint.
    As we get closer to any major event like a holiday or other 
event where we would see a tremendous influx of passengers, it 
would be a standard operating procedure to call special 
meetings to discuss loads that are anticipated, any issues--
weather contingencies, parking contingencies, things of that 
nature.
    So that has become standard protocol from the airport side 
to orchestrate those meetings.
    Mr. Principato. There are also regular conference calls 
that TSA has with airports on an ongoing basis as well.
    Ms. Richardson. Given some of the problems we talked about 
today, are any of you aware of layoffs happening within the TSA 
organization?
    Ms. Bart. I am not. I have not heard of anything to that 
effect.
    Ms. Richardson. Okay.
    Mr. Chairman, could I have 1 more minute?
    Mr. Costello. Sure, the gentlelady can have another minute.
    Ms. Richardson. Thank you, sir.
    One last question and then just a comment on behalf of 
JetBlue.
    My last question is: I recently was flying, and I noticed 
that if I am scheduled on a flight, let us say, at 5:00 o'clock 
and that flight is delayed and at 6:00 o'clock another flight 
is going out to the exact same destination, my flight is 
delayed like an hour or two. The people who were on the 
original flight at 5:00 are not the first ones who are able to 
go onto the 6:00. They have to wait from 6:00 to 7:00, to 8:00, 
to 9:00. They could end up waiting through two and three 
flights if those other flights are booked.
    Excuse my ignorance, but is there not a process to deal 
with that particular passenger who ends up continually getting 
bumped even though there are other available flights?
    Mr. Barger. If I may, Congresswoman, from a JetBlue 
perspective--and you raise a very good point.
    Ms. Richardson. It was not on JetBlue, by the way.
    Mr. Barger. Thank you. You raise a good point, though, and 
we struggle as an industry, and we struggle as a carrier.
    When you have an operational issue on one plane, do you 
domino that into many other flights when, even though the 
customer at 5:00 is wanting to fly to Oakland from Long Beach 
and is wanting to get on the 6:00, there is not a problem with 
the 6:00 flight?
    So maybe the Members of the Committee may not like the 
answer, but we tend to inconvenience that group, that single 
group of customers, as opposed to domino it to several other 
groups. It seems like the best, if not a good, answer, but it 
really is just to contain that level of inconvenience to one 
flight.
    If I may also, I will just echo Richard's comments. We are 
using auto-dialing, and I think we are newer to the game than 
others because we had to learn some of the lessons to 
communicate with our customers from the February time frame 
through the use of technology, so I just wanted to acknowledge 
that.
    If I may, Mr. Chairman, just in the closing of my comments, 
I would also like to take the opportunity to recognize 
Congresswoman Juanita Millender-McDonald. We certainly 
appreciated her support down in Long Beach, and we look forward 
to working with you in the future.
    Ms. Richardson. Likewise.
    Mr. Chairman, my other question would be building upon this 
question here, what possible regulation we might be involved 
with to deal with that issue, because when you are in an 
airport and you continue to be bumped for three and four 
flights, it just seems, if for the airlines it is more 
profitable or beneficial in their minds to only have those 100 
or 200 customers who are not happy, instead of 500, that it may 
not necessarily be what our constituents would prefer.
    Finally, coming from Long Beach, I wanted to give you a 
special plug. I heard several people talk about, you know, the 
chaos and the problems of what JetBlue, unfortunately, 
experienced--and what other airlines experienced, I want to 
fairly say--last year. Some people are not aware of the recent 
awards that you won, despite all of that, for being one of the 
best airlines in terms of timing and service to your 
constituents. So thank you, and that is my plug for being from 
the 37th.
    Thank you, Mr. Chairman.
    Mr. Costello. I am sure that Mr. Barger appreciates how you 
ended your comments and your time.
    Mr. Barger. Yes, thank you.
    Mr. Costello. The Chair thanks the gentlelady.
    Let me say that we again thank our witnesses for being 
here, and we appreciate your thoughtful testimony. We 
appreciate the fact that you are taking action to prepare for 
the holiday season.
    As I have said before, one of our responsibilities in this 
Subcommittee is to provide oversight, to make certain that the 
FAA and other Federal agencies are doing their jobs; and we 
have a responsibility to make certain that the airlines and the 
consumers are working together and that the consumers are 
treated fairly.
    We will examine the holiday season when we are in 2008, and 
hopefully, we can come back at some point after the first of 
the year and get a good report from you and from others in the 
industry.
    There being no further business before the Subcommittee, 
the Subcommittee stands adjourned.
    [Whereupon, at 12:44 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8920.007
    
    [GRAPHIC] [TIFF OMITTED] T8920.008
    
    [GRAPHIC] [TIFF OMITTED] T8920.009
    
    [GRAPHIC] [TIFF OMITTED] T8920.010
    
    [GRAPHIC] [TIFF OMITTED] T8920.011
    
    [GRAPHIC] [TIFF OMITTED] T8920.012
    
    [GRAPHIC] [TIFF OMITTED] T8920.013
    
    [GRAPHIC] [TIFF OMITTED] T8920.014
    
    [GRAPHIC] [TIFF OMITTED] T8920.015
    
    [GRAPHIC] [TIFF OMITTED] T8920.016
    
    [GRAPHIC] [TIFF OMITTED] T8920.017
    
    [GRAPHIC] [TIFF OMITTED] T8920.018
    
    [GRAPHIC] [TIFF OMITTED] T8920.019
    
    [GRAPHIC] [TIFF OMITTED] T8920.020
    
    [GRAPHIC] [TIFF OMITTED] T8920.021
    
    [GRAPHIC] [TIFF OMITTED] T8920.022
    
    [GRAPHIC] [TIFF OMITTED] T8920.023
    
    [GRAPHIC] [TIFF OMITTED] T8920.024
    
    [GRAPHIC] [TIFF OMITTED] T8920.025
    
    [GRAPHIC] [TIFF OMITTED] T8920.026
    
    [GRAPHIC] [TIFF OMITTED] T8920.027
    
    [GRAPHIC] [TIFF OMITTED] T8920.028
    
    [GRAPHIC] [TIFF OMITTED] T8920.029
    
    [GRAPHIC] [TIFF OMITTED] T8920.030
    
    [GRAPHIC] [TIFF OMITTED] T8920.031
    
    [GRAPHIC] [TIFF OMITTED] T8920.032
    
    [GRAPHIC] [TIFF OMITTED] T8920.033
    
    [GRAPHIC] [TIFF OMITTED] T8920.034
    
    [GRAPHIC] [TIFF OMITTED] T8920.035
    
    [GRAPHIC] [TIFF OMITTED] T8920.036
    
    [GRAPHIC] [TIFF OMITTED] T8920.037
    
    [GRAPHIC] [TIFF OMITTED] T8920.038
    
    [GRAPHIC] [TIFF OMITTED] T8920.039
    
    [GRAPHIC] [TIFF OMITTED] T8920.040
    
    [GRAPHIC] [TIFF OMITTED] T8920.041
    
    [GRAPHIC] [TIFF OMITTED] T8920.042
    
    [GRAPHIC] [TIFF OMITTED] T8920.043
    
    [GRAPHIC] [TIFF OMITTED] T8920.044
    
    [GRAPHIC] [TIFF OMITTED] T8920.045
    
    [GRAPHIC] [TIFF OMITTED] T8920.046
    
    [GRAPHIC] [TIFF OMITTED] T8920.047
    
    [GRAPHIC] [TIFF OMITTED] T8920.048
    
    [GRAPHIC] [TIFF OMITTED] T8920.049
    
    [GRAPHIC] [TIFF OMITTED] T8920.050
    
    [GRAPHIC] [TIFF OMITTED] T8920.051
    
    [GRAPHIC] [TIFF OMITTED] T8920.052
    
    [GRAPHIC] [TIFF OMITTED] T8920.053
    
    [GRAPHIC] [TIFF OMITTED] T8920.054
    
    [GRAPHIC] [TIFF OMITTED] T8920.055
    
    [GRAPHIC] [TIFF OMITTED] T8920.056
    
    [GRAPHIC] [TIFF OMITTED] T8920.057
    
    [GRAPHIC] [TIFF OMITTED] T8920.058
    
    [GRAPHIC] [TIFF OMITTED] T8920.059
    
    [GRAPHIC] [TIFF OMITTED] T8920.060
    
    [GRAPHIC] [TIFF OMITTED] T8920.061
    
    [GRAPHIC] [TIFF OMITTED] T8920.062
    
    [GRAPHIC] [TIFF OMITTED] T8920.063
    
    [GRAPHIC] [TIFF OMITTED] T8920.064
    
    [GRAPHIC] [TIFF OMITTED] T8920.065
    
    [GRAPHIC] [TIFF OMITTED] T8920.066
    
    [GRAPHIC] [TIFF OMITTED] T8920.067
    
    [GRAPHIC] [TIFF OMITTED] T8920.068
    
    [GRAPHIC] [TIFF OMITTED] T8920.069
    
    [GRAPHIC] [TIFF OMITTED] T8920.070
    
    [GRAPHIC] [TIFF OMITTED] T8920.071
    
    [GRAPHIC] [TIFF OMITTED] T8920.072
    
    [GRAPHIC] [TIFF OMITTED] T8920.073
    
    [GRAPHIC] [TIFF OMITTED] T8920.074
    
    [GRAPHIC] [TIFF OMITTED] T8920.075
    
    [GRAPHIC] [TIFF OMITTED] T8920.076
    
    [GRAPHIC] [TIFF OMITTED] T8920.077
    
    [GRAPHIC] [TIFF OMITTED] T8920.078
    
    [GRAPHIC] [TIFF OMITTED] T8920.079
    
    [GRAPHIC] [TIFF OMITTED] T8920.080
    
    [GRAPHIC] [TIFF OMITTED] T8920.081
    
    [GRAPHIC] [TIFF OMITTED] T8920.082
    
    [GRAPHIC] [TIFF OMITTED] T8920.083
    
    [GRAPHIC] [TIFF OMITTED] T8920.084
    
    [GRAPHIC] [TIFF OMITTED] T8920.085
    
    [GRAPHIC] [TIFF OMITTED] T8920.086
    
    [GRAPHIC] [TIFF OMITTED] T8920.087
    
    [GRAPHIC] [TIFF OMITTED] T8920.088
    
    [GRAPHIC] [TIFF OMITTED] T8920.089
    
    [GRAPHIC] [TIFF OMITTED] T8920.090
    
    [GRAPHIC] [TIFF OMITTED] T8920.091
    
    [GRAPHIC] [TIFF OMITTED] T8920.092
    
    [GRAPHIC] [TIFF OMITTED] T8920.093
    
    [GRAPHIC] [TIFF OMITTED] T8920.094
    
    [GRAPHIC] [TIFF OMITTED] T8920.095
    
    [GRAPHIC] [TIFF OMITTED] T8920.096
    
    [GRAPHIC] [TIFF OMITTED] T8920.097
    
    [GRAPHIC] [TIFF OMITTED] T8920.098
    
                                    

</pre></body></html>
